 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 MEDICARE COMPLIANCE REVIEW OF
DUKE UNIVERSITY HOSPITAL FOR THE
PERIOD JANUARY 1, 2011, THROUGH
      SEPTEMBER 30, 2012


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     Lori S. Pilcher
                                                Regional Inspector General

                                                         April 2014
                                                       A-04-13-04012
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Duke University Hospital did notfully comply with Medicare requirements for billing
 inpatient and outpatient services, resulting in estimated overpayments ofat least $626,133
 over nearly 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Duke University Hospital (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
types of claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary's stay is assigned and the severity level of the patient's
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary's stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 924-bed acute care facility located in Durham, North Carolina. According to
CMS's National Claims History data, Medicare paid the Hospital approximately $584 million for
22,101 inpatient and 492,063 outpatient claims for services provided to beneficiaries during
January 1, 2011, through September 30, 2012 (audit period).

Our audit covered $26,303,124 in Medicare payments to the Hospital for 2,905 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 251
claims with payments totaling $3,296,435. These 251 claims had dates of service in our audit
period and consisted of 119 inpatient and 132 outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 179 of the 251 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 72 claims, resulting in net overpayments of $262,884 for
the audit period. Specifically, 26 inpatient claims had billing errors resulting in net
overpayments of $218,294, and 46 outpatient claims had billing errors resulting in overpayments

Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)
of $44,590. These errors occurred primarily because the Hospital did not have adequate controls
to prevent the incorrect billing of Medicare claims within the selected risk areas that contained
errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $626,133 for the audit period.

WHAT WE RECOMMEND

We recommend that the Hospital:

    • 	 refund to the Medicare contractor $626,13 3 in estimated overpayments for the audit
        period for claims that it incorrectly billed and

    • 	 strengthen controls to ensure full compliance with Medicare requirements.

DUKE UNIVERSITY HOSPITAL COMMENTS AND OUR RESPONSE

In written comments on our draft report, the Hospital concurred with our findings and
recommendations with one exception. For one claim, the Hospital disagreed with our finding
that it submitted the claim to Medicare with an incorrect DRG code.

In addition, the Hospital described the actions it had taken to strengthen its controls to ensure full
compliance with Medicare requirements.

After reviewing the Hospital's comments, we maintain that the Hospital billed the disputed claim
incorrectly. We acknowledge the Hospital's efforts to strengthen its compliance with Medicare
requirements.




Medicare Compliance Review ofDuke University Hospital (A-04-13 -04012)                               ii
                                                     TABLE OF CONTENTS 



INTRODUCTION ........................................................................................................................... 1 


           Why We Did This Review ................................................................................................... 1 


           Objective .............................................................................................................................. ! 


           Background ....................................................................................................................... ... 1 

                 The Medicare Program ............................................................................................ 1 

                 Hospital Inpatient Prospective Payment System ..................................................... 1 

                 Hospital Outpatient Prospective Payment System .................................................. 1 

                 Hospital Claims at Risk for Incorrect Billing ..........................................................2 

                 Medicare Requirements for Hospital Claims and Payments ...................................2 

                 Duke University Hospital ........................................................................................ 2 


           How We Conducted This Review ....................................................................................... 3 


FINDINGS ....................................................................................................................................... 3 


           Billing Errors Associated With Inpatient Claims ............................................................... .4 

                   Incorrectly Billed as Inpatient ................................................................................. 4 

                   Incorrectly Billed Diagnosis-Related-Group Codes ................................................ 4 

                   Incorrect Discharge Status ....................................................................................... 5 

                   Manufacturer Credits for Replaced Medical Devices Not Reported ....................... 5 


           Billing Errors Associated With Outpatient Claims ............................................................. 6 

                   Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained ... 6 

                   Incorrectly Billed Evaluation and Management Services ....................................... 7 

                   Incorrect Healthcare Common Procedure Coding System Codes ........................... 8 


OVERALL ESTIMATE OF OVERPAYMENTS .......................................................................... 8 


RECOMMENDATIONS ................................................................................................................. 8 


DUKE UNIVERSITY HOSPITAL COMMENTS AND 

 OFFICE OF INSPECTOR GENERAL RESPONSE .................................................................. 8 


APPENDIXES

          A: Audit Scope and Methodology .................................................................................... 10 


          B: Sample Design and Methodology ................................................................................ 12 




Medicare Compliance Review ofDuke University Hospital (A-04-13 -04012)                                                                            iii
        C: Sample Results and Estimates ............. ........................................................................ 15 


        D: Results of Review by Risk Area .................................................................................. 16 


        E: Duke University Hospital Comments .......................................................................... 17 





Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                                                           iv
                                             INTRODUCTION 


WHY WE DID THIS REVIEW 


This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Duke University Hospital (the Hospital) complied with
Medicare requirements for billing inpatient and outpatient services on selected types of claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. CMS contracts with Medicare contractors to, among other things, process
and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

Under the inpatient prospective payment system (IPPS), CMS pays hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary's stay is assigned and the severity level of the patient's
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary's stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review ofDuke University Hospital (A-04-13 -04012)                                              I
Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims paid in excess of charges,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient claims billed with high-severity-level DRG codes, 


    •   outpatient claims with payments greater than $25,000, 


    •   outpatient claims billed with evaluation and management (E&M) services, 


    •   outpatient claims billed for Doxorubicin Hydrochloride, and 


    •   outpatient claims billed for Lupron injections. 


For the purposes of this report, we refer to these areas at risk for incorrect billing as "risk areas."
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that "are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member" (the Social Security Act (the Act),§ 1862(a)(l)(A)). In addition, the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider(§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Duke University Hospital

The Hospital is a 924-bed acute care facility located in Durham, North Carolina. According to
CMS's National Claims History (NCH) data, Medicare paid the Hospital approximately



Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                                     2
$584 million for 22,101 inpatient and 492,063 outpatient claims for services provided to
beneficiaries during January 1, 2011, through September 30, 2012 (audit period).

HOW WE CONDUCTED THIS REVIEW

Our audit covered $26,303,124 in Medicare payments to the Hospital for 2,905 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 251
claims with payments totaling $3,296,435. These 251 claims had dates of service in our audit
period and consisted of 119 inpatient and 132 outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 65 claims
to medical review and coding review to determine whether the services were medically
necessary and properly coded. This report focuses on selected risk areas and does not represent
an overall assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                               FINDINGS

The Hospital complied with Medicare billing requirements for 179 of the 251 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 72 claims, resulting in net overpayments of $262,884 for
the audit period. Specifically, 26 inpatient claims had billing errors resulting in net
overpayments of $218,294, and 46 outpatient claims had billing errors resulting in overpayments
of $44,590. These errors occurred primarily because the Hospital did not have adequate controls
to prevent the incorrect billing of Medicare claims within the selected risk areas that contained
errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $626,133 for the audit period. See Appendix B for sample design and methodology,
Appendix C for sample results and estimates, and Appendix D for the results of review by risk
area.




Medicare Compliance Review ofDuke University Hospital (A-04-13 -04012)                             3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 26 of the 119 inpatient claims that we reviewed.
These errors resulted in net overpayments of$218,294. One claim contained more than one type
of error. 2

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that "are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malfotmed
body member" (the Act,§ 1862(a)(1)(A)).

For 8 of the 119 inpatient claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital said that one of these errors occurred because of miscommunication between the case­
management staff and the billing department. The case-management staffhad identified the
claim as not being medically necessary for inpatient but the billing staff did not bill the claim
correctly. The Hospital said that it has begun using electronic communication between the case­
management and billing departments, which should help prevent such errors. The Hospital said
that the other errors occurred because of the interpretations of medical data by the physicians
admitting the patients.

As a result of these errors, the Hospital received overpayments of$109,736. 3

Incorrectly Billed Diagnosis-Related-Group Codes

Medicare payments may not be made for items or services that "are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member" (the Act, § 1862(a)(l)(A)). In addition, the Manual states: "In order to be
processed correctly and promptly, a bill must be completed accurately" (chapter 1, § 80.3.2.2).

For 15 ofthe 119 inpatient claims, the Hospital submitted claims to Medicare with incorrect
DRG codes. For example, the Hospital submitted a claim with a secondary diagnosis of
universal ulcerative colitis. However, the medical records did not support the coding of this
diagnosis. By including this secondary diagnosis, the Hospital increased the weight of the DRG,
which resulted in an overpayment. In another example, the Hospital submitted a claim with a
principal diagnosis code of hypertensive chronic kidney disease for a beneficiary admitted to the


2
 For randomly sampled claims that contained more than one type of error, the total claim overpayment was used for
error estimation. We did not estimate errors on the same claim twice.
3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
contractor prior to the issuance of this report.



Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                                              4
Hospital with a diagnosis ofhyperkalemia,4 which resulted from the patient's not properly
getting necessary dialysis treatments. The Hospital treated the patient with dialysis. Coding
guidance directs using hyperkalemia as the principal diagnosis in this circumstance. By
including hypertensive chronic kidney disease as the principal diagnosis, the Hospital increased
the weight of the DRG, which resulted in another overpayment.

These errors occurred because of the Hospital coders' interpretation ofthe medical records or
their application of coding rules.

As a result of these errors, the Hospital received net overpayments of $94,454.

Incorrect Discharge Status

Federal regulations state that a discharge of a hospital inpatient is considered to be a transfer
when the patient's discharge is assigned to one of the qualifying DRGs and the discharge is to
home under a home health agency's written plan of care for home health services that begin
within 3 days after the date of discharge (42 CFR § 412.4( c)). A hospital that transfers an
inpatient under the above circumstance is paid a graduated per diem rate for each day of the
patient's stay in that hospital, not to exceed the full DRG payment that would have been paid if
the patient had been discharged to another setting (42 CFR § 412.4(f)).

For 2 of the 119 inpatient claims, the Hospital incorrectly billed Medicare for patient discharges
that should have been billed as transfers. Specifically, the Hospital coded the discharge status as
to home instead of to home health. Thus, the Hospital received the full DRG payment instead of
the graduated per diem payment it would have received if it had correctly coded the patient's
discharge status. The Hospital stated that these errors occurred because of individual coders'
mistakes.

As a result of these errors, the Hospital received overpayments of $9,1 04.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of a device, or (3) the provider receives a credit equal to 50 percent or more of
the cost ofthe device (42 CFR § 412.89). The Manual states that, to bill correctly for a
replacement device that was provided with a credit, a hospital must code its Medicare claims
with a combination of condition code 49 or 50, along with value code "FD" (chapter 3, § 100.8).

For 2 of the 119 inpatient claims, the Hospital received reportable medical device credits from a
manufacturer for replaced devices but did not adjust its inpatient claims with the proper
condition and value codes to reduce payment as required.



4
 Hyperkalemia is an abnormally elevated level of potassium in the blood. It is usually caused by kidney
dysfunction.


Medicare Compliance Review ofDuke University Hospital (A-04-13 -040 12)                                   5
For one of the claims, the Hospital did not report the credit due to a misinterpretation of CMS
guidelines. Hospital staff calculated the percentage of the credit to the cost of the device
incorrectly by including the cost of all devices replaced during a procedure instead of including
only the cost of the individual device associated with the credit received. As a result, the staff
incorrectly calculated a percentage less than 50 percent, and, therefore, the Hospital did not
report the credit. The Hospital said it had subsequently taken steps to educate staff on the correct
interpretation of CMS 's guidelines.

For the other claim, the Hospital did not report the credit because of a step in the billing process
in which a staff member removed the proper condition and value codes that would have reduced
the payment. The Hospital stated that the removal was inadvertent and blamed inconsistent
monitoring of the claims-submission process.

As a result of these errors, the Hospital received overpayments of$5,000.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 46 of the 132 outpatient claims that we reviewed.
These errors resulted in overpayments of $44,590. Three claims contained more than one type of
error. (See footnote 2.)

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419 .45). The CMS Provider Reimbursement Manual (PRM) reinforces these requirements in
additional detail (Pub. No. 15-1). 5

CMS guidance in Transmittal1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier "FB" and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
lfthe provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.


5
  The PRM states: "Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service" (part I, § 2102.1). Section 2103 further defines prudent buyer
principles and states that Medicare providers are expected to pursue free replacements or reduced charges under
warranties. Section 2103(C)(4) provides the following example: "Provider B purchases cardiac pacemakers or their
components for use in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for
full or partial credits available under the terms ofthe warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost of the equipment."


Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                                               6
For 2 of the 132 outpatient claims, the Hospital incorrectly billed Medicare for medical devices
that were under warranty.

For one claim, the Hospital did not obtain a credit for a replaced medical device for which a
credit was available under the terms of the manufacturer's warranty. The Hospital stated that the
error occurred because of misinformation from the manufacturer and that accurate information
from the manufacturer was crucial to the credit process. The Hospital said it had subsequently
taken steps to improve communication with the manufacturer by establishing communications
with its warranty office rather than by relying on its sales representatives.

For the other claim, the Hospital received a reportable credit from a manufacturer for a replaced
device, but did not report the credit. The Hospital said that it did not report the credit because it
misinterpreted CMS guidelines. Hospital staff incorrectly calculated the percentage of the credit
to the cost of the device by including the cost of all devices replaced during a procedure instead
of including only the cost of the individual device associated with the credit received. As a
result, the staff incorrectly calculated a percentage less than 50 percent, and, therefore, the
Hospital did not report the credit. The Hospital said it had subsequently taken steps to educate
staff on the correct interpretation of CMS 's guidelines.

As a result of these errors, the Hospital received overpayments of $42,470.

Incorrectly Billed Evaluation and Management Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider(§ 1833 (e)). The Manual states that a
Medicare contractor pays for an E&M service that is significant, separately identifiable, and
above and beyond the usual preoperative and postoperative work of a procedure (chapter 12,
§ 30.6.6(B)). In addition, the Manual specifically states that E&M HCPCS code 99211 should
not be paid with a nonchemotherapy drug infusion HCPCS code or a chemotherapy
administration HCPCS code (chapter 12, § 30.5(F)).

For 36 of the 132 outpatient claims, the Hospital incorrectly billed Medicare for E&M services.
For these claims, the E&M services were not significant, separately identifiable, and above and
beyond the usual preoperative and postoperative work of the procedure. For example, for 25 of
the 36 claims, the Hospital staff incorrectly billed the E&M services with HCPCS code 99211
for encounters that involved a nonchemotherapy drug infusion (HCPCS code 96365) or a
chemotherapy administration (HCPCS code 96413).

The Hospital said the errors occurred because staff members did not always identify encounters
as "procedure only" (i.e., the E&M service is not a significant, separately identifiable service).

As a result of these errors, the Hospital received overpayments of$1,620.




Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                                7
Incorrect Healthcare Common Procedure Coding System Codes

The Act precludes payment to any provider of services or other person without infonnation
necessary to determine the amount due the provider(§ 1833(e)). In addition, the Manual states:
"In order to be processed correctly and promptly, a bill must be completed accurately" (chapter
1, § 80.3.2.2).

For 11 of 132 outpatient claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes. These incorrect codes occurred because, in some cases, Hospital staff did not
follow its Medicare contractor's guidance or, in other cases, human error caused claims to be
coded incorrect}y.

For 8 of the 11 errors, the Hospital billed a chemotherapy administration HCPCS code for
administration of a certain drug, but, according to billing guidance issued by the Hospital's
Medicare contractor, it should have billed a nonchemotherapy drug infusion HCPCS code. Even
though the Medicare contractor issued the billing guidance after the effective date and after the
dates of service for the claims in question, the Hospital should have filed corrected claims for all
claims that were subject to the guidance.

For 3 of the 11 errors, the Hospital billed a higher-level E&M HCPCS code than was supported
by the medical records. The Hospital billed these higher-level codes because of human error
when coding the claims for billing purposes.

As a result of these errors, the Hospital received overpayments of $500.

                        OVERALL ESTIMATE OF OVERPAYMENTS

Based on our sample results, we estimated that the Hospital received overpayments of at least
$626,133 for the audit period.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    • 	 refund to the Medicare contractor $626,133 in estimated overpayments for the audit
        period for claims that it incorrectly billed and

    • 	 strengthen controls to ensure full compliance with Medicare requirements.

     DUKE UNIVERSITY HOSPITAL COMMENTS AND OFFICE OF INSPECTOR
                         GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with our findings and
recommendations with one exception. For one claim, the Hospital disagreed with our finding
that it submitted the claim to Medicare with an incorrect DRG code.




Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                              8
In Addition, the Hospital described the actions it had taken to strengthen its controls to ensure
full compliance with Medicare requirements.

As we indicated in Appendix A, during our audit, we used a CMS Medicare contractor's medical
review staff and coders to determine whether certain claims in our sample, including the claim in
question, were properly coded. The contractor examined all of the medical records and
documentation submitted for this claim and determined that it was not submitted with the correct
DRG code. On the basis of the contractor's conclusion, we maintain that the Hospital billed the
disputed claim incorrectly.

We acknowledge the Hospital's efforts to strengthen its compliance with Medicare requirements.

The Hospital's comments are included in their entirety as Appendix E.




Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                               9
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


Our audit covered $26,303,124 in Medicare payments to the Hospital for 2,905 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 251
claims with payments totaling $3,296,435. These 251 claims consisted of 119 inpatient and 132
outpatient claims and had dates of service from January 1, 2011, through September 30,2012
(audit period).

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 65 claims
to medical review and coding review to determine whether the services were medically
necessary and properly coded.

We limited our review of the Hospital's internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the NCH file, but we did not assess the
completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from April 2013 through September 2013.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal laws, regulations, and guidance;

    • 	 extracted the Hospital's inpatient and outpatient paid claims data from CMS's NCH file
        for the audit period;

    • 	 obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    • 	 used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    • 	 selected a stratified random sample of251 claims (119 inpatient and 132 outpatient)
        totaling $3,296,435 for detailed review (Appendix B);

    • 	 reviewed available data from CMS' s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;


Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                            10
    • 	 reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the sampled claims;

    • 	 requested that the Hospital conduct its own review of the sampled claims to determine
        whether the services were billed correctly;

    • 	 reviewed the Hospital's procedures for assigning DRG, HCPCS and admission status
        codes for Medicare claims;

    • 	 discussed the incorrectly billed claims with Hospital personnel to determine the 

        underlying causes of noncompliance with Medicare requirements; 


    • 	 used a CMS Medicare contractor's medical review staff and coders to determine whether
        65 claims met medical necessity requirements and were properly coded;

    • 	 calculated the correct payments for those claims requiring adjustments;

    • 	 used the results of the sample review to calculate the estimated Medicare overpayment to
        the Hospital (Appendix C); and

    • 	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                           11
                   APPENDIX B: SAMPLE DESIGN AND METHODOLOGY 


POPULATION 


The population contained inpatient and outpatient claims paid to the Hospital for services
provided to Medicare beneficiaries during the audit period.

SAMPLING FRAME

According to CMS's NCH data, Medicare paid the Hospital $583,605,859 for 22,101 inpatient
and 492,063 outpatient claims for services provided to beneficiaries during the audit period.

We obtained a database of claims from the NCH data totaling $417,766,466 for 11,565 inpatient
and 163,608 outpatient claims in 27 risk areas. From these 27 areas, we selected 9 consisting of
98,535 claims totaling $254,900,928, for further review.

We then removed the following:

    • 	 $0 paid claims,
    • 	 claims under review by the Recovery Audit Contractor, and
    • 	 claims duplicated within individual risk areas.

For inpatient claims, we assigned each claim that appeared in multiple risk areas to just one area
based on the following hierarchy: Manufacturer Credits for Replaced Medical Devices, Claims
Billed With High-Severity-Level DRG Codes, Claims Paid in Excess of Charges, and Short
Stays. For outpatient claims, we used the following hierarchy: Manufacturer Credits for
Replaced Medical Devices, Claims With Payments Greater Than $25,000, Claims Billed for
Lupron Injections, Claims Billed With Evaluation and Management (E&M) Services, and
Claims Billed for Doxorubicin Hydrochloride. This resulted in a sampling frame of 2,905
unique Medicare claims in 9 risk areas totaling $26,303,124.

                                                                          Number      Amount of
                                 Risk Area                                of Claims   Payments
    1. 	   Inpatient Manufacturer Credits for Replaced Medical
           Devices                                                                9     $221,671
    2. 	   Inpatient Claims Billed With High-Severity-Level DRG               1,244    15,909,155
           Codes
    3. 	   Inpatient Claims Paid in Excess of Charges                            79     2,135,778
    4. 	   Inpatient Short Stays                                                152     1,677,894
    5. 	   Outpatient Manufacturer Credits for Replaced Medical
           Devices                                                                7       112,817
   6. 	    Outpatient Claims With Payments Greater Than $25,000                 155     5,191,611
   7. 	    Outpatient Claims Billed for Lupron Inj ections                       90       364,840
   8. 	    Outpatient Claims Billed With E&M Services                         1,034       218,332
   9. 	    Outpatient Claims Billed for Doxorubicin Hydrochloride               135       471,026
             Total 	                                                          2,905   $26,303,124


Medicare Compliance Review ofDuke University Hospital (A -04-13-040 12)                             12
SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified sample. We stratified the sampling frame into nine strata based on the risk
area. All claims were unduplicated, appearing in only one area and only once in the entire
sampling frame.

SAMPLE SIZE

We randomly selected 251 claims for review as follows:

                                                                        Claims in
                                                                        Sampling        Claims in
    Stratum                    Risk Area                                 Frame           Sample
        1   Inpatient Manufacturer Credits for Replaced
            Medical Devices                                                         9           9
       2    Inpatient Claims Billed With High-Severity-
            Level DRG Codes                                                   1,244            50
       3    Inpatient Claims Paid in Excess of Charges                           79            30
       4    Inpatient Short Stays                                               152            30
       5    Outpatient Manufacturer Credits for Replaced
            Medical Devices                                                         7           7
       6    Outpatient Claims With Payments Greater
            Than $25,000                                                        155            35
       7    Outpatient Claims Billed for Lupron Injections                       90            30
       8    Outpatient Claims Billed With E&M Services                        1,034            30
       9    Outpatient Claims Billed for Doxorubicin
            Hydrochloride                                                       135            30
               Total                                                          2,905           251

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OTG/OAS) statistical software Random Number Generator.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata 2, 3, 4, 6, 7, 8, and 9. After generating the
random numbers for strata 2, 3, 4, 6, 7, 8, and 9, we selected the corresponding claims in each
stratum. We selected all claims in strata 1 and 5.




Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                               13
ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the total amount of Medicare
overpayments in our sampling frame for the Hospital during the audit period.




Medicare Compliance Review ofDuke University Hospital (A-04-13 -04012)              14
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES 


SAMPLE RESULTS 


                                                                         Number of
                                                                         Incorrectly
                Frame                                          Total        Billed     Value of
                 Size     Value of             Sample        Value of     Claims in Overpayments
 Stratum 
     (Claims)    Frame                Size         Sample        Sample     in Sample
    1
                 9    $221,671                   9      $221,671              4      $45,313
    2
             1,244  15,909,155                  50       524,374              6       18,619
    3
                79   2,135,778                  30       775,228              6       69,800
    4
               152   1,677,894                  30       291,815             10       84,562
    5
                 7     112,817                   7       112,817              2       42,470
    6
               155   5,191,611                  35     1,138,458             24        1,179
    7
                90     364,840                  30       124,245              0            0
    8
             1,034     218,332                  30         4,699             11          623
    9
               135     471,026                  30       103,128              9          318
  Total 
          2,905 $26,303,124                 251    $3,296,435             72     $262,884

ESTIMATES

                         Estimates of Overpayments for the Audit Period
                       Limits Calculated for a 90-Percent Confidence Interval

                                 Point Estimate            $1,191,431
                                 Lower limit                 $626,133
                                 Upper limit               $1,756,729




Medicare Compliance Review ofDuke University Hospital (A -04-13-04012)                          15
                             APPENDIX D: RESULTS OF REVIEW BY RISK AREA 



                                                                        Value of            Claims With
                                                      Selected          Selected          Underpayments/           Value of Net
                  Risk Area                           Claims            Claims             Overpayments           Overpay ments
Inpatient

Short Stays                                                 30          $291,815                      10                $84,562

Claims Paid in Excess of Charges                            30            775,228                      6                     69,800
Manufacturer Credits for Replaced Medical
                                                             9            221,671                      4                     45,313
Devices
Claims Billed With High-Severity-Level
                                                            50            524,374                      6                     18,619
DRG Codes
 Inpatient Totals                                         119         $1,813,088                     26                $218,294



Outpatient
Manufacturer Credits for Replaced Medical
                                                             7          $112,817                       2                $42,470
Devices
Claims With Payments Greater Than
                                                            35          1,138,458                    24                       1,179
$25,000
Claims Billed With E&M Services                             30               4,699                    11                       623
Claims Billed for Doxorubicin
                                                           30             103,128                      9                       318
Hydrochloride
Claims Billed for Lupron Injections                         30            124,245                      0                          0

 Outpatient Totals                                        132         $1,483,347                     46                 $44,590



 Inpatient and Outpatient Totals                          251         $3,296,435                     72                $262,884


        Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
        outpatient claims by the risk areas we reviewed. However, we have organized this report's findings by the types of
        billing errors we found at the Hospital. Because we have organized the information differently, the information in
        the individual risk areas in this table does not match precisely with this report's findings.




       Medicare Compliance Review ofDuke University Hospital (A-04-13 -04012)                                           16
                 APPENDIX E: DUKE UNIVERSITY HOSPITAL COMMENTS 



U
  ~ DUKE UNIVERSITY HEALTH SYSTEM
        Compliance Office



March 31, 2014


Ms. Lori S. Pilcher
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region IV
61 Forsyth Street, SW. Suite 3T41
Atlanta, GA 30303

RE: 	    Draft Report entitled Medicare Compliance Review of Duke University Hospital for the
         Period January 1, 2011 through September 30, 2012
         Report Number: A-04-13-04012

Dear Ms. Pilcher:

Duke University Hospital (DUH) appreciates the opportunity to review and comment on the
OIG's Draft Report entitled Medicare Compliance Review of Duke University Hospital for the
Period January 1, 2011 through September 30, 2012, Report Number: A-04-13-04012 (Report).
DUH is highly committed to ensuring that it complies with all federal healthcare program rules
and directives. As part of that commitment, DUH has implemented and operates a
sophisticated compliance program covering DUH's clinical and billing activities. DUH continues
to improve its internal controls and to perform proactive reviews to prevent billing errors.

DUH's responses to the OIG's findings and recommendations detailed in the Report are
provided in this letter. Except as stated in responses to the finding of Incorrectly Billed
Diagnosis-Related Group Codes under Inpatient Claims section, DUH concurs with the findings
of the Report and the recommendation to refund Palmetto GBA the estimated overpayments
described in the Report.

DUH Responses:

BILLING ERRORS AsSOCIATED WITH INPATIENT CLAIMS


Incorrectly Billed as Inpatient
The Report found that DUH incorrectly billed 8 of the 119 inpatient claims to Medicare Part A
that should have been billed as outpatient or outpatient with observation services.

With respect to this finding, DUH has taken the following actions:
1. 	 DUH has established a utilization management {UM) review process to facilitate the
     determination of the appropriate patient status based upon the patient's severity of illness



                         Box 3162- Durham, NC 27710- tel (919) 668-2573- fax (919) 668-2575

Medicare Compliance Review ofDuke University Hospital (A-04-13 -04012)                          17
     and needed intensity of services. UM staff use electronic lnterQual to review and assess
     appropriate patient status. In addition, DUH increased UM staff to permit Emergency
     Department and Saturday coverage.
2. 	 DUH has established a bill hold to permit pre-bill submission review by a nurse medical chart
     auditor, which will include a screening review of 0-2 day Medicare inpatient admissions to
     determine appropriate patient status and claim type prior to submission of the claim.
3. 	 DUH has engaged Executive Health Resources to perform secondary reviews of admissions
     and provide peer to peer documentation education to providers.
4. 	 DUH UM staff are to perform ongoing training in collaboration with physician advisors to
     accurately document patient status at admission.
5. 	 DUH initiated an electronic workflow process between UM and revenue management staff
     to improve tracking of change requests to reduce errors.
6. 	 DUH has implemented the FY 2014 IPPS Rule "2 Midnight Presumption" as an Inpatient
     Admission criterion with documentation supporting medical necessity.

Incorrectly Billed Diagnosis-Related Group Codes
The Report found that DUH submitted 15 of the 119 inpatient claims to Medicare with incorrect
DRG codes. We disagree with the OIG finding that sample 83 was incorrectly coded. DUH
correctly identified ICD-9 Code 996.84 (complications of transplanted organ, lung) as the
principal diagnosis. See MPIM, Chapter 6, Section 6.5.3 and the AHA Coding Clinic. Pre-existing
conditions and medical conditions that develop after the transplant are coded as complications
of the transplanted organ, when they affect the function of that organ.

With respect to this finding, DUH has taken the following actions:
1. 	 Health Information Management {HIM} Coding Department is structured to include
     compliance specialists to provide guidance, training and oversight to the inpatient coders.
     The compliance specialists focus on quality and accuracy of coding, response to coders'
     questions and review of physician queries.
2. 	 The compliance specialists are supported by HIM clinical documentation analysts who are
     registered nurses to assist in the interpretation of clinical documentation, assist with
     physician queries, and provide education to coders, compliance specialists and physicians.
3. 	 HIM Coding Department performs monthly quality reviews of coders' accuracy and training,
     and ongoing coding education.
4. 	 DUH is making improvements to its Clinical Documentation Improvement {COl} Program,
     which is designed to improve clinical documentation education for providers. DUHS has
     hired a new CD/ Director and Physician Advisor and is hiring additional CD/ nurses. These
     nurses concurrently review clinical documentation and address physician queries to clarify
     documentation with the providers.

Incorrect Discharge Status
The Report found that DUH incorrectly billed 2 of 119 inpatient claims to Medicare for patient
discharges that should have been billed as transfers.




Report Number: A-04-13-04012 	                                                          Page 2 of 4
Medicare Compliance Review ofDuke University Hospital (A -04-13-040 12)                         18
With respect to this finding, DUH has taken the following actions:
1. 	 HIM Coding Management will continue to provide training to coders.
2. 	 Case Management will provide discharge disposition notes to permit accurate discharge
     status coding.
3. 	 HIM Coding Management will provide monthly quality reviews of coders' assignment of
     codes.

Manufacturer Credits for Replaced Medical Devices Not Reported
The Report found that DUH received reportable medical device credits from a manufacturer for
replaced devices for 2 of the 119 inpatient claims, but did not adjust its inpatient claims with
the proper condition and value codes to reduce payment as required.

With respect to this finding, DUH has taken the following actions:
1. 	 DUH has updated policies and procedures for clinical department staff and materials staff
       associated with devices and revenue management staff assigned to device billing.
       Additional training has been provided regarding verification of receipt of manufacturer's
        warranty information for devices and coding and claims processing of credit device
       adjustments.
2. 	   The revenue management staff assigned to device billing will be responsible for notifying the
       appropriate staff of any changes to the current year DRGs and APCs to which the No
       Cost/Full Credit and Partial Credit Device Adjustment Policy will apply.
3. 	   Instruction has been provided to clinical department staff regarding completion of the
       internal standardized form that identifies costs and applied credits, and forwarding of the
       form to the revenue management staff to complete the appropriate claims processing and
       charge corrections.
4. 	   Instruction has been provided to clinical staff regarding coordination with the relevant
       manufacturer to obtain current manufacturer warranty information to ensure compliance
       with each manufacturer's credit policies.
5. 	   Revenue management staff will perform quality review of paid claims to verify accuracy of
       codes and submitted claim.

BILLING ERRORS AsSOCIATED WITH OUTPATIENT CLAIMS


Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained
The Report found that DUH incorrectly billed Medicare for 2 of the 132 outpatient claims for
medical devices that were under warranty.

With respect to this finding, please see the above response regarding Inpatient Claims for
Manufacturer Credits for Replaced Medical Devices Not Reported

Incorrectly Billed Evaluation and Management Services
The Report found that DUH incorrectly billed Medicare for 36 of the 132 outpatient claims for
Evaluation and Management Services in which the services were not separately identifiable,



Report Number: A-04-13-04012 	                                                           Page 3 of4

Medicare Compliance Review ofDuke University Hospital (A-04-13-04012)                            19
and above and beyond the usual preoperative and postoperative work associated with the
procedure.

With respect to this finding, DUH has taken the following actions:
1. 	 A billing edit has been implemented to prevent submission of a claim with HCPCS code level
     ofservice with nonchemotherapy or chemotherapy administration HCPCS code.
2. 	 Ancillary staff will receive continued training related to circumstances in which it is
     appropriate to bill procedure and Evaluation and Management code during the same
     encounter, as well as when to bill a procedure code only.

Incorrect Healthcare Common Procedure Coding System Codes
The Report found that DUH submitted 11 of 132 outpatient claims to Medicare with incorrect
HCPCS codes.

With respect to this finding, DUH has taken the following actions:
1. 	 Based on timing of contractor's guidance, revenue management staff will review paid claims
     and file corrected claims as appropriate.
2. 	 Coding staff will receive continued coding training.
3. 	 Comprehensive Charge Description Master {COM} review was performed in 2012 to review
     accuracy of procedural codes. Review and updating of the COM occurs annually.

We would like to thank the OIG audit staff who conducted the compliance review of DUH for
their openness, collegiality and willingness to work with the DUH Compliance staff. If you have
any additional questions or need additional information regarding DUH's responses, please
contact Colleen Shannon at (919) 668-2573 or colleen.shannon @duke.edu .

Sincerely,

/Colleen M. Shannon/

Colleen M. Shannon
Chief Compliance & Privacy Officer
Duke University Health System

cc: 	   Victor J. Dzau, M.D., President and Chief Executive Officer
        Mark D. Gustafson, Deputy General Counsel for Health Affairs




Report Number: A-04-13-04012 	                                                        Page 4 of4

Medicare Compliance Review ofDuke University Hospital (A-04-1 3-04012)                       20
